TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Affordable Care Act: Improvements Are
                 Needed to Strengthen Systems Development
                 Controls for the Premium Tax Credit Project



                                      September 27, 2013

                              Reference Number: 2013-23-119




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Redaction Legend:
 2 = Risk Circumvention of Agency Regulation or Statute



 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                HIGHLIGHTS


AFFORDABLE CARE ACT:                                WHAT TIGTA FOUND
IMPROVEMENTS ARE NEEDED TO
                                                    The IRS has completed development and
STRENGTHEN SYSTEMS                                  testing for the PTC Computation Engine
DEVELOPMENT CONTROLS FOR THE                        (PTC-CE) needed to calculate the APTC and the
PREMIUM TAX CREDIT PROJECT                          Remainder Benchmark Household Contribution.
                                                    In addition, the IRS developed a process to
                                                    verify the accuracy of the PTC-CE calculations.
Highlights                                          However, improvements are needed to ensure
                                                    the long-term success of the PTC Project by
Final Report issued on                              adherence to systems development controls for:
September 27, 2013                                  (1) configuration and change management;
                                                    (2) interagency test management process;
Highlights of Reference Number: 2013-23-119         (3) security; and (4) fraud detection and
to the Internal Revenue Service Chief               mitigation, in accordance with applicable
Technology Officer.                                 guidance.

IMPACT ON TAXPAYERS                                 WHAT TIGTA RECOMMENDED
In March 2010, the President signed into law the    TIGTA made seven recommendations to the
Health Care and Education Reconciliation Act        IRS Chief Technology Officer. In management’s
of 2010 and the Patient Protection and              response to the report, the IRS agreed with six
Affordable Care Act (ACA) (collectively referred    of the recommendations and plans to implement
to as the ACA). The ACA law seeks to provide        corrective actions.
more Americans with access to affordable health
                                                    However, the IRS disagreed with one of our
care. The Premium Tax Credit (PTC) Project
                                                    recommendations to ensure that the
falls under the IRS ACA Program. Beginning
                                                    Cybersecurity organization resolves or develops
January 2014, eligible taxpayers who purchase
                                                    an action plan for the failed security tests.
health insurance through an Exchange may
                                                    TIGTA maintains that this recommendation
qualify for and request a refundable tax credit
                                                    should be addressed to verify that corrective
(the PTC) to assist with paying their health
                                                    measures for failed controls have been
insurance premium. The credit is claimed on the
                                                    implemented.
taxpayer’s Federal tax return at the end of each
coverage year. Because it is a refundable
credit, taxpayers who have little or no income
tax liability can still benefit. The PTC can also
be paid in advance to a taxpayer’s health
insurance provider to help cover the cost of
premiums. This credit is referred to as the
Advanced Premium Tax Credit (APTC).
WHY TIGTA DID THE AUDIT
The overall objective of this review was to
determine if the IRS is adequately managing
systems development risks for the PTC Project.
TIGTA evaluated the IRS’s key management
controls and processes for risk management,
requirements and change management, testing,
security, and fraud detection for the PTC
Project, which is being developed in the IRS’s
new Enterprise Life Cycle Iterative Path.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 27, 2013


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Affordable Care Act: Improvements Are
                             Needed to Strengthen Systems Development Controls for the
                             Premium Tax Credit Project (Audit # 201320312)

 This report presents the results of our review of how the Premium Tax Credit (PTC) Project
 managed controls over systems development of the Premium Tax Credit Computation Engine.
 The overall objective of this review was to determine if the Internal Revenue Service (IRS) is
 adequately managing systems development risks for the PTC Project. Specifically, we evaluated
 the IRS’s key management controls and processes over risk management, requirements and
 change management, testing, security, and fraud detection while the PTC Project followed the
 Enterprise Life Cycle Iterative Path systems development and testing process. This audit is
 included in the Treasury Inspector General for Tax Administration Fiscal Year 2013 Annual
 Audit Plan and addresses the following major management and performance challenges
 confronting the IRS: (1) Implementing the Affordable Care Act and Other Tax Law Changes
 and (2) Security for Taxpayer Data and Employees.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have questions, please contact me or Alan Duncan, Assistant Inspector
 General for Audit (Security and Information Technology Services).
                                         Affordable Care Act: Improvements Are
                                       Needed to Strengthen Systems Development
                                       Controls for the Premium Tax Credit Project




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Internal Revenue Service Has Completed Development and Testing
          for the Premium Tax Credit Computation Engine Needed for the
          Advanced Premium Tax Credit .................................................................... Page 4
          The Internal Revenue Service Developed a Process to Verify the
          Accuracy of the Premium Tax Credit Computation Engine Calculations .... Page 4
          Configuration and Change Management Controls Need Improvement to
          Ensure Long-Term Success for the Premium Tax Credit Project................. Page 5
                    Recommendations 1 and 2: .............................................. Page 8

          Interagency Test Management Process Controls Need Improvement
          to Ensure Long-Term Success of the Premium Tax Credit Project .............. Page 9
                    Recommendation 3:........................................................ Page 10

          Security Control Processes Need Improvement to Ensure Long-Term
          Success of the Premium Tax Credit Project ................................................. Page 10
                    Recommendations 4 and 5: .............................................. Page 13

          A Fraud Mitigation Strategy Is Not in Place to Guide Affordable Care Act
          Systems Development, Testing, Initial Deployment, and Long-Term
          Operations ..................................................................................................... Page 14
                    Recommendations 6 and 7: .............................................. Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 17
          Appendix II – Major Contributors to This Report ........................................ Page 19
          Appendix III – Report Distribution List ....................................................... Page 20
                                Affordable Care Act: Improvements Are
                              Needed to Strengthen Systems Development
                              Controls for the Premium Tax Credit Project


Appendix IV – Partial Process Diagram for Affordable Care Act 3.0,
Including the Maximum Advanced Premium Tax Credit Calculation
Process .......................................................................................................... Page 21
Appendix V – Glossary of Terms ................................................................. Page 24
Appendix VI – Management’s Response to the Draft Report ...................... Page 28
          Affordable Care Act: Improvements Are
        Needed to Strengthen Systems Development
        Controls for the Premium Tax Credit Project




               Abbreviations

ACA     Affordable Care Act
APTC    Advanced Premium Tax Credit
CE      Computation Engine
CMS     Centers for Medicare and Medicaid Services
CR      Change Request
FPL     Federal Poverty Level
HHS     Department of Health and Human Services
IRM     Internal Revenue Manual
IRS     Internal Revenue Service
IT      Information Technology
JBOSS   JavaBeans Open Source Software
PMO     Program Management Office
PTC     Premium Tax Credit
RBHC    Remainder Benchmark Household Contribution
RRP     Return Review Program
RTVM    Requirements Traceability Verification Matrix
TIGTA   Treasury Inspector General for Tax Administration
                                    Affordable Care Act: Improvements Are
                                  Needed to Strengthen Systems Development
                                  Controls for the Premium Tax Credit Project




                                              Background

In March 2010, Congress passed two pieces of
legislation that the President later signed into
                                                         The ACA legislation seeks to
law—the Health Care and Education                       provide more Americans with
Reconciliation Act of 2010 and the Patient             access to affordable health care.
Protection and Affordable Care Act (ACA).1
Collectively, this legislation is referred to as the
ACA. The ACA legislation seeks to provide
more Americans with access to affordable
health care by creating a new Health Insurance
Marketplace, enforcing patient/consumer
protections, and providing Government
subsidies for people who cannot afford
insurance. The Marketplace simplifies an applicant’s search for health coverage by providing
multiple options in one place and comparing plans based on price, benefits, quality, and other
important features that help consumers make a choice. The Health Insurance Marketplace is
commonly referred to as “Exchanges,” which is the terminology we will use in this report.
In order to enroll in health insurance coverage offered through an Exchange, taxpayers must
complete an application and meet certain eligibility requirements defined by the ACA. For
example, they must be U.S. citizens or legal immigrants. Exchanges offer insurance plans by
private companies, and taxpayers can access qualified health plan information online, via a call
center, or in person. The qualified health plans cover the same core set of benefits called
“essential health benefits,” and no plan can turn an applicant away or charge more because of a
preexisting illness or medical condition. The Exchanges are intended to provide a place for
Americans to shop for health insurance in a competitive environment.
The ACA requires that enrollment for the Exchanges begin on October 1, 2013, and that the
Exchanges become operational and offer health coverage starting on January 1, 2014. Beginning
January 2014, eligible taxpayers who purchase health insurance through an Exchange may
qualify for and request a refundable tax credit2 to assist with paying their health insurance
premium. The credit is called the Premium Tax Credit (PTC) and is claimed on the taxpayer’s



1
  Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of the U.S. Code), as
amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029. See
Appendix V for a glossary of terms.
2
  Any tax credit that is refundable can be used to reduce a taxpayer’s tax liability to zero. Any excess of the credit
beyond the tax liability can be refunded to the taxpayer.
                                                                                                                Page 1
                                     Affordable Care Act: Improvements Are
                                   Needed to Strengthen Systems Development
                                   Controls for the Premium Tax Credit Project


Federal tax return at the end of each coverage year.3 Because the PTC is a refundable credit,
taxpayers who have little or no income tax liability can still benefit.4
The PTC can also be paid in advance to a taxpayer’s health insurance provider to help cover the
cost of premiums. This credit is referred to as the Advanced Premium Tax Credit (APTC). The
APTC will be available for individuals and families without minimal essential coverage, whose
incomes are at least 100 percent and up to 400 percent of the Federal Poverty Level (FPL). The
APTC is paid monthly on behalf of the taxpayer to the health insurance provider to offset the
costs of the premiums. Payments will be issued by the Federal Management Services branch of
the Department of the Treasury. Starting in January 2015, taxpayers must include the amount of
any APTC on their tax return and reconcile it to the allowable amount of PTC.
The Internal Revenue Service’s (IRS) role with respect to the ACA is to implement and
administer the ACA provisions that have an impact on tax administration. The IRS’s
implementation plan for ACA Exchange provisions includes providing information that will
support the Department of Health and Human Services (HHS) and the Exchanges in three main
areas: (1) eligibility and enrollment; (2) developing calculations for the maximum APTC; and
(3) reconciling PTCs with reported taxable income. While the HHS is leading development
efforts for ACA policy provisions, the legislation requires the IRS to build new computer
applications, modify existing systems, create or revise business processes and fraud detection
systems, and deploy and test new interagency communication portals to support ACA operations.
Recognizing the integral role that information technology plays in executing the IRS’s portion of
the ACA legislation, the IRS created the ACA Information Technology (IT) Program
Management Office (ACA PMO) to ensure a dedicated focus on fulfilling ACA requirements.
Within the ACA PMO are various project offices that focus on specific areas of ACA
development. The PTC Project includes all PTC processes related to the development of the
PTC Computation Engine (PTC-CE), and the IT Implementation and Testing organization
verifies that the requirements and design for all PTC systems have been adequately tested and
correctly implemented. The ACA PMO has segmented implementation of the ACA into various
releases. ACA Release 3.0 (ACA 3.0) focuses on the Eligibility and Enrollment process area.
The IRS’s overall objective for the PTC Project as part of ACA 3.0 is to receive requests from
Exchanges, calculate maximum monthly APTCs and Remainder Benchmark Household
Contributions (RBHC), and return the responses to the Exchanges via the HHS Hub. Within the
PTC Project, the PTC-CE will calculate the maximum amount of APTC that a recipient is
allowed in advance of tax filing and the resulting RBHC.
The IRS’s calculation of the maximum allowable amount of the APTC is initiated with a request
from an Exchange to the IRS PTC-CE. In the request, the Exchange passes four inputs to the


3
    The period that the taxpayer received coverage from a qualified health plan.
4
    A refundable credit can be claimed even if the taxpayer does not owe any tax during the coverage year.
                                                                                                             Page 2
                            Affordable Care Act: Improvements Are
                          Needed to Strengthen Systems Development
                          Controls for the Premium Tax Credit Project


IRS’s PTC-CE: (1) household income; (2) coverage year; (3) income as a percentage of the
FPL; and (4) the adjusted premium for the applicable Second Lowest Cost Silver Plan. The
Exchange receives two outputs from the IRS PTC-CE: (1) the maximum monthly APTC and
(2) the RBHC. Appendix IV provides a partial process diagram for ACA 3.0, including the
maximum APTC calculation process.
The scope of our audit was limited to reviewing the PTC Project under ACA 3.0 activities. We
conducted our review to determine if the IRS is adequately managing systems development risks
for the PTC Project, which is considered a major component of the ACA Program. This review
was performed at the ACA PMO in Lanham, Maryland, during the period November 2012
through July 2013. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                       Page 3
                             Affordable Care Act: Improvements Are
                           Needed to Strengthen Systems Development
                           Controls for the Premium Tax Credit Project




                                Results of Review

The IRS has completed development and testing for the PTC-CE, which is needed to calculate
the APTC and the RBHC. To complete this project, the IRS also developed and implemented a
process for verifying the accuracy of the PTC-CE calculations. However, improvements are
needed to ensure the long-term success for the PTC Project by adherence to systems
development controls for: (1) configuration and change management; (2) interagency test
management process; (3) security; and (4) fraud detection and mitigation in accordance with
applicable guidance.

The Internal Revenue Service Has Completed Development and
Testing for the Premium Tax Credit Computation Engine Needed for
the Advanced Premium Tax Credit
The IRS has completed functional development and testing of the PTC-CE, which will calculate
the maximum APTC and the RBHC. This was accomplished by applying the IRS’s new
Iterative Systems Development Life Cycle through a requirements discovery, planning, design,
development, and testing process known as “sprints.” The IT Implementation and Testing
organization conducted a PTC system test over three sprints to verify (1) the calculation of
the maximum APTC and (2) the calculation of the RBHC. The IT Implementation and
Testing organization’s Consolidated Project-Level End-of-Test Completion Report, dated
January 7, 2013, states that, “the results observed during the functional and regression testing
efforts as well as during checkpoint reviews with business owners for PTC indicate the system
satisfies the approved business requirements.”

The Internal Revenue Service Developed a Process to Verify the
Accuracy of the Premium Tax Credit Computation Engine
Calculations
On April 15, 2013, the IRS provided an Excel spreadsheet that it used to manually calculate the
PTC-CE outputs (Manual Calculator). The IRS compared the outputs from the Manual
Calculator to the actual system results to validate the PTC-CE outputs. At the time of our
review, based on a judgmental sample of eight test cases, we were able to replicate the IRS’s
process for validating that the PTC-CE accurately calculated the maximum APTC and RBHC




                                                                                          Page 4
                                  Affordable Care Act: Improvements Are
                                Needed to Strengthen Systems Development
                                Controls for the Premium Tax Credit Project


amounts.5 To select the eight test cases, we judgmentally sampled four PTC requirements out of
a total of 35. We selected these four requirements because they are the requirements that directly
relate to the PTC-CE. Then, out of a total of 527 test cases related to the four requirements, we
judgmentally sampled two functional test cases for each of the requirements, for a total of eight
test cases. All eight test cases contained the four PTC-CE input values as required to properly
calculate the maximum APTC and the RBHC. We ran the test case input values through the
Manual Calculator and documented the maximum APTC and RBHC results. We then compared
the manual results to the actual system results and they matched.
        Overall Management’s Response: The Chief Technology Officer stated in his
        written management response to the draft report, “I was pleased to read your observation
        acknowledging that our PTC-CE accurately calculated the maximum APTC.”
        Office of Audit Comment: We have one point of clarification related to the above
        statement. Our audit focused on systems development controls and testing processes
        developed by the IRS. Our review did not verify operational accuracy of the PTC-CE
        beyond the test environment that we considered. Specifically, during this review, the
        audit team replicated the IRS’s verification process in a judgmental sample of eight test
        cases. Our sample considered specific test cases that included requirements and
        conditions being tested by the IRS during the time frame of our review. However, the
        audit scope did not include all functional test cases planned or completed by the IRS with
        the development of the PTC-CE. Further, verification of results for a judgmental sample
        of test cases is a nonstatistical sample and the results cannot be applied to the overall
        testing or system development processes.

Configuration and Change Management Controls Need Improvement
to Ensure Long-Term Success for the Premium Tax Credit Project

Configuration management controls were not consistently followed
The purpose of configuration management controls is to establish and maintain the integrity of
work products, including testing documentation, throughout their life cycle.6 Configuration
management controls are also needed to ensure that changes are authorized, controlled, and
tracked for project documentation, hardware, and software. It is important that the IRS creates
test cases to specify and document whether systems requirements and conditions are tested to
validate that each system functions as intended.7 Documentation for each test case should

5
  Our audit did not consider the completeness of IRS’s total population of functional test cases related to the
PTC-CE. A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the
population.
6
  The ACA Program Configuration Management Plan, in accordance with Internal Revenue Manual (IRM) 2.27.1,
Configuration Management (Jan. 2010), establishes configuration management policies, processes, and procedures.
7
  IRM 2.6.1, Product Assurance, Test, Assurance, and Documentation Standards and Procedures (Nov. 2010).
                                                                                                        Page 5
                              Affordable Care Act: Improvements Are
                            Needed to Strengthen Systems Development
                            Controls for the Premium Tax Credit Project


include the requirements being tested to help ensure that each requirement is included in a test
case and properly tested.
In order for the IRS to calculate the maximum APTC amounts that it will provide to the
Exchanges, a computation will be performed by the IRS based on four inputs, including the
applicant’s income as a percentage of the FPL. The FPL input value is one of the four inputs that
determine the maximum APTC amount that an applicant can receive when applying for a tax
credit under the ACA legislation.
Configuration management controls were not followed with two test cases for the software code
related to the FPL percentage requirement. IT Implementation and Testing organization
management informed us that our audit prompted them to discover that the original Test
Case 128 and its run history were inadvertently overwritten when updates were made to the test
case after it was not properly controlled in the IT Implementation and Testing organization’s test
case repository. As a result, Test Case 128 and its run history were lost. Test Case 128 was later
re-executed after updates were made to test the FPL software code change. Management also
discovered that Test Case 130 was initially developed and executed with an outdated input data
file, which necessitated that the test case be re-executed.
Based on our observation, we believe that if this control weakness had not been addressed prior
to the implementation of the PTC-CE, the IRS would have tested this critical system requirement
using incorrect input data. Further, this approach could have resulted in the PTC-CE incorrectly
calculating the maximum APTC for applicants. This condition in turn could result in improper
tax payments. Moreover, if test case documentation is not adequately controlled during systems
development, the IRS may not have sufficient assurance that all mission-critical APTC
requirements are adequately tested and that the PTC-CE system functions as intended.
Management Action: The IT Implementation and Testing organization stated that it is taking
both short-term and long-term management action by identifying process improvements to make.
For example, in the short term, it will change how input data files and test cases are stored in its
repository and will add a date to the test case file names to help avoid overwriting a previously
executed test case. It will also enhance testing peer reviews to (1) verify that the current input
data file is stored in the main folder and that test cases include the current input data file and
(2) check the run history of the test cases to ensure that they have not been overwritten. In the
long term, it will use a test case tool for test case management that will provide version control
over the test cases.




                                                                                             Page 6
                                 Affordable Care Act: Improvements Are
                               Needed to Strengthen Systems Development
                               Controls for the Premium Tax Credit Project


Change management controls need improvement
The IRS requires that a change request (CR) be prepared and approved to change baseline
requirements.8 According to the ACA Program Requirements Plan, requirements changes start
with the initiation of a CR, which is the medium for requesting approval to change a baselined
requirement. Once a CR is developed, it should be reviewed and dispositioned9 by the
appropriate Change Control Board.10 Test cases are created to specify and document the
conditions to be tested and to validate that a system functions as intended.11 The test case should
include the requirement(s) being tested to ensure that each requirement is included in a test case
and properly tested to ensure that the system functions as intended. The Requirements
Traceability Verification Matrix (RTVM) is an important management tool that the IRS relies on
to ensure that all PTC requirements are included in test cases and adequately tested.
There were a total of 10 PTC CRs. Of these, we identified two CRs (PTC CR06 and PTC CR07)
that modified requirements to the PTC-CE software code.12 Details for these requirements are
provided in Figure 1.
                 Figure 1: Details Regarding CRs PTC CR06 and PTC CR07
               Changed	
    PTC	     Requirement	       Changed	
    CR	#	      Number	      Requirement	Name	                Changed	Requirement	Description	
    **2**	     ***2***      ********2********      ************************2*********************
    **2**	                  *********2*****        ************************2*******************
                                                   ************************2********.
    **2**	     ***2***      ********2********      ************************2*********************
    **2**	                  *********2*****        ************************2*******************
                            *********2*****        ************************2********.
    **2**	     ***2***      ********2********      ************************2*********************
    **2**	                                         ************************2*******************
                                                   ************************2*********************
                                                   ****************************2*****************
                                                   ************2******************
Source: CR numbers PTC CR06 and PTC CR07.



8
  The ACA Program Configuration Management Plan, in accordance with IRM 2.27.1 (Jan. 2010), requires that a
CR be prepared and approved to change baseline requirements.
9
  According to the ACA PMO Configuration Management Plan, dispositioned is defined as to approve, conditionally
approve, defer, disapprove, elevate, or remand a CR by the appropriate Change Control Board.
10
   A CR is reviewed and first dispositioned by the PTC Project Change Control Board. If the change exceeds the
disposition approval authority for the Project Change Control Board, then the change will be reviewed and
dispositioned by the ACA PMO Change Control Board.
11
   IRM 2.6.1, Product Assurance, Test, Assurance, and Documentation Standards and Procedures (Nov. 2010).
12
   The FPL value is one of the four inputs for calculating the maximum APTC amount.
                                                                                                       Page 7
                              Affordable Care Act: Improvements Are
                            Needed to Strengthen Systems Development
                            Controls for the Premium Tax Credit Project


Although the PTC Project Team prepared PTC CR06 and PTC CR07 for these two changed
baselined requirements, these specific CRs did not include the affected requirement numbers or
descriptions, which would have facilitated the traceability of requirements and test cases to the
RTVM. PTC Project management explained that these CRs did not include the affected
requirement numbers or descriptions because the CR template and the Change Request Tracking
System do not include requirement number and description fields.
We believe that it is important to include the affected requirements in the CRs to ensure adequate
traceability of requirements and test cases to the RTVM. This is particularly important to ensure
that requirements are included in test cases and adequately tested. Without traceability from
CRs, to requirements, and then to the RTVM, the IRS may not have the ability to verify that the
changes to the software code were successfully tested. As a result, the PTC-CE could possibly
calculate the maximum APTC incorrectly, which could potentially result in inaccurate maximum
APTC amounts for individual applicants. This condition in turn could result in improper tax
payments. Further, the IRS may not have complete assurance that all mission-critical APTC
requirements are adequately tested to ensure that the ACA system functions as intended.
Management Action 2: Based on our discussions of this finding with the IRS, the PTC Project
management team agreed to take immediate action by updating PTC CR06 and PTC CR07 to
include the affected requirement numbers and to facilitate traceability from the CRs to the
requirements and then to the RTVM.

Recommendations
Recommendation 1: The Chief Technology Officer should ensure that testing peer review
guidance and other applicable guidelines are updated and that a test case management tool is
used to ensure that APTC test case input data files, test cases, and test case run histories are
properly controlled.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       stated that the ACA Strategic Test Management Plan and supporting procedures will be
       updated to reflect additional testing peer review guidance and other applicable guidelines
       to ensure that APTC test case input data files, test cases, and test case run histories are
       properly controlled.
Recommendation 2: The Chief Technology Officer should ensure that CR templates, tools,
and applicable change management guidelines are updated to ensure that CRs include the
affected requirement numbers and requirement descriptions for adequate traceability of
requirements and test cases to the RTVM.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       stated that the PTC Project team has taken intermediate action to update the PTC Change
       Management Request template. They also will update their change management

                                                                                            Page 8
                              Affordable Care Act: Improvements Are
                            Needed to Strengthen Systems Development
                            Controls for the Premium Tax Credit Project


       guidelines and templates to ensure that CRs include the affected requirement numbers
       and descriptions for adequate traceability of requirements and test cases to the RTVM.

Interagency Test Management Process Controls Need Improvement to
Ensure Long-Term Success of the Premium Tax Credit Project

Interagency test cases were not developed in accordance with test management
procedures
The IRS conducted interagency testing to verify integration, interface, performance, and
reliability requirements for major design components of the system. Interagency testing should
include validating data formats and transmission, validating software and hardware
interoperability, and using manufactured data to invoke user-like work streams in a simulated
production environment. Staff in each agency is responsible for repairing defects in their
respective systems and keeping the systems operational.
The interagency test cases that we analyzed contained user scenarios that were jointly developed
by the Centers for Medicare and Medicaid Services (CMS) and the IRS. The test cases we
considered were developed to validate the critical business processes for inbound requests from
the CMS and outbound responses from the IRS. For example, a test case could require the
submission of a single PTC request from the CMS Federal Exchange, ensure that the correct
results are generated on the IRS systems, and verify those results are correctly returned and
presented at the CMS Federal Exchange.
We observed that the IT Implementation and Testing organization personnel did not consistently
follow appropriate test management procedures. Internal Revenue Manual (IRM) 2.6.1 requires
that test cases be developed to support requirements testing. Test cases must specify and
document the conditions to be tested and validate that system functions meet customer
requirements as translated into a documented functional design. Test cases should also include
the requirements being tested to ensure that each requirement is properly tested. During our
review, the IRS stated that test cases are mapped to requirements in the requirements traceability
matrix to ensure traceability. However, we reviewed five interagency test cases provided by the
IT Implementation and Testing organization and found that they did not contain all key
requirements that must be tested to verify system capabilities.
The IT Implementation and Testing organization staff explained that testing with another Federal
agency, including the HHS, involves new processes, so everyone is learning as the work
progresses with ACA systems development. Further, they explained that missing requirements
were not included in the test cases because of an IRS decision to restrict certain data during the
test case development process from the CMS.
However, if requirement numbers and descriptions are not included in test cases, traceability
between requirements, test cases, and test results may not be accurate or complete. Based on our

                                                                                           Page 9
                                    Affordable Care Act: Improvements Are
                                  Needed to Strengthen Systems Development
                                  Controls for the Premium Tax Credit Project


review, we concluded that the IRS has not applied established systems development controls to
verify that the HHS Hub and the IRS portal for ACA effectively transfer data13 as needed by the
IRS for calculating the maximum APTC.

Recommendation
Recommendation 3: The Chief Technology Officer should update test management
procedures to include additional controls and processes to document how traceability between
requirements, test cases, and test results will be achieved for interagency testing.
           Management’s Response: The IRS agreed with this recommendation. The IRS
           stated that the ACA Strategic Test Management plan will be updated to formally
           document how traceability between requirements, test cases, and test results are achieved
           for testing with external entities.

Security Control Processes Need Improvement to Ensure Long-Term
Success of the Premium Tax Credit Project
The IT Cybersecurity organization has contracted for security-related services, including ACA
system testing support. The contract recognizes that the ACA impacts the IRS and the HHS,
along with other Federal and State agencies. It also recognizes that there are new processes,
functions, and information technology capabilities required at both the management and
technical levels, including the implementation of complex technical and business changes in
parallel work streams. The ACA system testing support provided through this contract reflects
an IRS decision that contractor resources and expertise are needed to implement these
capabilities and to manage the design, development, testing, deployment, integration, and
maintenance of the associated systems.

Failed security controls identified by security control assessment testing require
corrective actions prior to system implementation
The ACA System Security Plan identified 12 security controls that were only partially
implemented during the APTC testing process that we reviewed. As a result, during the Security
Control Assessment, some critical ACA infrastructure components included in the 12 security
controls failed because they did not contain the appropriate baseline configurations and
mandatory configuration settings as required by the National Institute of Standards and
Technology and IRM guidelines. *******************2***************************
***********************************2******************************************
***********************************2******************************************
*********2****

13
     The HHS Hub is connected to IRS systems through the IRS’s Transactional Portal Environment.
                                                                                                   Page 10
                              Affordable Care Act: Improvements Are
                            Needed to Strengthen Systems Development
                            Controls for the Premium Tax Credit Project


      ******************************2****************************.
      ******************************2*************************************
       ******************2*********.
      ******************************2************************************
       ***************2****.
      ****************2****************.
      **************2*********************************.
Many of the vulnerabilities in information systems can be traced to software flaws and
misconfigurations of system components. During our observations of security testing for the
PTC Project, IT Cybersecurity organization management ensured that the tests were conducted
in accordance with the National Institute of Standards and Technology and IRM guidelines.
However, the configuration baselines and configuration settings for the security controls were
not adequately tested as discussed previously. We requested additional information on the
corrective actions for the failed test controls. However, IT Cybersecurity organization
management could not provide documentation to verify the corrective measures during our audit
fieldwork. As a result, we are concerned that known risks associated with component
misconfigurations might not have been mitigated for the PTC Project.

Change management guidelines were not consistently followed when baseline
security requirements were withdrawn from the PTC Project
The ACA Program Configuration Management Plan, in accordance with IRM guidelines, also
requires that a CR be prepared and approved to change baseline requirements. According to the
ACA Program Requirements Plan, requirement changes start with the initiation of a CR and a
change impact assessment to determine the potential impact of changed baselined requirements
prior to approving and implementing the CR. Once a CR is developed, it should be reviewed
and dispositioned by the appropriate Change Control Board.
During our review, we observed instances where change management guidelines were not
followed to withdraw approved baseline security requirements from the PTC Project. For
instance, the CR and impact assessment prepared to withdraw specific security requirements
included only one of the seven baseline requirements removed from the PTC Project.
This specific CR removed the following security requirement from the PTC Project:
      ****************************************2*************************
       **********************2*****************.
The security manager stated that this requirement was removed because the PTC Project does not
have any application-level end users and that logical access to the application is provided by the
infrastructure.
                                                                                          Page 11
                             Affordable Care Act: Improvements Are
                           Needed to Strengthen Systems Development
                           Controls for the Premium Tax Credit Project


However, the CR did not include the following six security requirements that were withdrawn
from the PTC Project:
          ***********************************2*******************************
           ***********************************2******************************
           ***********************************2******************************.
          ***********************************2*******************************
           ***********************************2******************************
           ***********************************2******************************
           *************************2******************.
          ***********************************2*******************************
           ***********************************2******************************
           *************************2******************.
          ***********************************2*******************************
           ***********************************2******************************
           ***********************************2******************************
           *************************2******************.
          ***********************************2*******************************
           ***********************************2******************************
           ***********************************2******************************
           *************************2****************************************
           **********2************.
          ***********************************2*******************************
           ***********************************2******************************
           *************************2******************.
During our review, IT Cybersecurity organization management stated that they did not have
access to the Change Request Tracking System tool because the tool was maintained at the ACA
Program level. Without this access, IT Cybersecurity organization staff explained that they were
unable to ensure that the CRs were approved and processed. Due to this lack of transparency for
the PTC change management process, IT Cybersecurity organization staff was unaware of when
final changes to the baseline security requirements were implemented. As a result, the IRS may
be unable to determine the potential impact of changed requirements on the security controls for
the PTC-CE, which could negatively impact functionality and delay successful deployment of
the PTC Project.




                                                                                        Page 12
                              Affordable Care Act: Improvements Are
                            Needed to Strengthen Systems Development
                            Controls for the Premium Tax Credit Project


Recommendations
Recommendation 4: The Chief Technology Officer should ensure that the IT Cybersecurity
organization resolves or develops an action plan with specific corrective actions and time periods
for the failed security tests as part of the ACA Security Assessment and Authorization.
       Management’s Response: The IRS disagreed with this recommendation. The IRS
       stated that it already does this process and it has documented policies in place in its IRM
       that address this recommendation, and that IRM 10.8.1.3.5.1 requires weaknesses
       identified during the Security Assessment and Authorization to be documented in a Plan
       of Actions and Milestones to include planned, implemented, and evaluated remedial
       actions to correct any deficiencies.
       Office of Audit Comment: We acknowledge that the IRS has a process in place to
       resolve or develop an action plan with specific corrective actions and time periods for
       failed security tests as part of the ACA Security Assessment and Authorization.
       However, we discussed this finding and recommendation with the PTC Project team and
       IT Cybersecurity organization officials during our audit closing conference. In the
       written management response to the draft report, the IRS did not address the audit
       conditions and finding that prompted our recommendation. TIGTA maintains that this
       recommendation should be addressed because during audit fieldwork, IT Cybersecurity
       organization officials could not provide documentation to verify the corrective measures
       for the failed test controls. By addressing this recommendation, the IRS could better
       ensure that known risks associated with component misconfigurations are consistently
       addressed for the PTC Project during the ACA Security Assessment and Authorization
       process. Moreover, TIGTA maintains that this recommendation requires that, going
       forward, the IT Cybersecurity organization follow its process to resolve or develop an
       action plan with specific corrective actions and time periods for the failed security tests
       that we reviewed as part of the ACA Security Assessment and Authorization. Such a
       resolution or an action plan with the corrective actions is needed to ensure that the IRS is
       addressing the vulnerabilities in information systems that can be traced to software flaws
       and misconfigurations of system components for the PTC Project and across other
       information technology projects being developed by the ACA Program.
Recommendation 5: The Chief Technology Officer should ensure that CRs and impact
assessments are accurately prepared and processed as required by change management
guidelines.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       stated that steps have been taken to provide IT Cybersecurity organization staff with
       access to the Change Request Tracking System so they are aware when final changes to
       the baseline security requirements have been implemented.


                                                                                           Page 13
                                   Affordable Care Act: Improvements Are
                                 Needed to Strengthen Systems Development
                                 Controls for the Premium Tax Credit Project


A Fraud Mitigation Strategy Is Not in Place to Guide Affordable Care
Act Systems Development, Testing, Initial Deployment, and
Long-Term Operations
The IRS’s current IRMs do not address management’s responsibility for managing, monitoring,
and mitigating fraud risk with the development of new information technology systems for the
ACA. Further, the ACA Program has not yet completed a fraud mitigation strategy to guide
ongoing systems development. It is important for the IRS to thoroughly consider fraud threats
and risks that could impact new ACA systems. For example, tax fraud is often defined as an
intentional wrongdoing on the part of a taxpayer, with the specific purpose of evading a tax
known or believed to be owed. Tax fraud requires both a tax due and owing and fraudulent
intent. The Improper Payment Information Act of 200214 requires Federal agencies, including
the IRS, to estimate and reduce the amount of improper payments made each year. Robust fraud
mitigation controls and new systems are required to reduce improper and erroneous payments
and fraud risk.
IRM 25.1.1, Fraud Handbook, Overview/Definitions, provides an overview of fraud, defines the
elements of fraud, and is a comprehensive guide for IRS employees in the recognition and
development of potential fraud issues. IRM 25.1.2, Recognizing and Developing Fraud,
provides direction to IRS employees on how to recognize the signs of fraud and the development
process used to prove fraud. However, neither of these IRMs addresses management’s
responsibility for developing new systems to combat fraud risks.
A pre-decisional briefing document prepared by the ACA PMO in response to our audit outlined
the IRS’s ongoing fraud mitigation approach for its new ACA systems and applications.
However, the ACA program management team acknowledged that this approach is not part of an
established fraud mitigation strategy for ACA systems. Such a strategy is needed to guide
systems development including fraud controls for new ACA systems.
During this audit, the IRS also informed us that two new systems, the Return Review Program
(RRP)15 System and the ACA Validation Service System, are under development and will
address ACA tax refund fraud risk. However, until these new systems are successfully
developed and tested, TIGTA remains concerned that the IRS’s existing fraud detection system16




14
   Pub. L. No. 107-300, 116 Stat. 2350.
15
   The RRP is the key automated component of the IRS’s pre-refund initiative and will implement the IRS’s new
business model for a coordinated criminal and civil tax noncompliance approach to prevent, detect, and resolve tax
refund fraud.
16
   The IRS’s current fraud detection system is the Electronic Fraud Detection System.
                                                                                                          Page 14
                                Affordable Care Act: Improvements Are
                              Needed to Strengthen Systems Development
                              Controls for the Premium Tax Credit Project


may not be capable of identifying ACA refund fraud or schemes prior to the issuance of tax
return refunds. Further, our recent audit17 of the RRP system reported the following:
        Roles for program-level governance were not yet established for the RRP and the key
         role of system integrator was not documented or clearly communicated.
        RRP Prototype Management Plans and critical systems development products were not
         completed or approved by major stakeholders before significant resources were
         committed to prototyping activities.
        Uncertainty about the systems development path for the RRP and the absence of
         Enterprise Life Cycle guidance for prototypes hindered initial systems development
         efforts.
        Alternative commercial software products were not fully considered prior to selecting
         technology solutions for the RRP system.
        The IRS reported that the long-term limitations of its existing fraud detection system
         include its inability to keep pace with increasing levels of fraud and to serve the
         organization’s evolving compliance needs.
Without a fraud detection and mitigation strategy, the ACA Program may not have assurances
that ACA systems adequately address emerging fraud control requirements. Further, without
adequate fraud mitigation controls, the IRS may be unable to identify ACA refund fraud or
schemes prior to the issuance of erroneous refunds.

Recommendations
Recommendation 6: The Chief Technology Officer should ensure that the IRM is updated to
provide specific guidance on how IRS management is to effectively manage, monitor, and
mitigate fraud risk for information technology systems.
         Management’s Response: The IRS agreed with this recommendation. The IRS
         stated that the appropriate IRM sections will be updated to ensure that fraud risk is
         considered in developing requirements and systems capabilities as part of every
         legislative implementation project.
Recommendation 7: The Chief Technology Officer should ensure that the ACA Program
completes a comprehensive fraud mitigation strategy to guide ACA systems development,
testing, and implementation.



17
  TIGTA, Ref. No. 2013-20-063, Improvements Are Needed to Ensure Successful Development and System
Integration for the Return Review Program (Jul. 2013).
                                                                                                 Page 15
                     Affordable Care Act: Improvements Are
                   Needed to Strengthen Systems Development
                   Controls for the Premium Tax Credit Project


Management’s Response: The IRS agreed with this recommendation and stated that
it will be implemented for every ACA release. The IRS stated that in the development of
ACA 3.0, which is scheduled to go live in October 2013, they have already determined
there is no tax fraud risk with the APTC calculator or the Income and Family Size
Verification process.




                                                                               Page 16
                                      Affordable Care Act: Improvements Are
                                    Needed to Strengthen Systems Development
                                    Controls for the Premium Tax Credit Project


                                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine if the IRS is adequately managing systems development
risks for the PTC1 Project under the ACA Program. To accomplish our objective, we:
I.         Determined whether the PTC Project has established key systems development,
           management and control processes over risk management, requirements and change
           management, and testing while following the Enterprise Life Cycle Iterative Path
           process.
           A. Determined whether PTC Project risks were properly identified, monitored, and
              mitigated in accordance with applicable guidance.
           B. Determined whether risks were being adequately managed regarding requirements
              and change management in accordance with applicable guidance.
           C. Determined whether risks have been adequately managed regarding the PTC Project
              system testing activities in accordance with applicable guidance.
                1. Determined the accuracy of the PTC-CE. We judgmentally sampled2 four PTC
                   requirements from a total of 35. We selected these four requirements because
                   they are the requirements that directly relate to the PTC-CE. We then selected
                   two functional test cases for each of the four requirements, for a total of eight test
                   cases.
                2. Reviewed the adequacy of the Interagency Testing for the PTC Project.
II.        Determined whether security controls for the PTC Project were designed and properly
           tested to protect taxpayer data in accordance with applicable guidance.
III.       Determined whether fraud detection controls were designed into the PTC system in
           accordance with applicable guidance.
           A. Interviewed PTC Project personnel about fraud detection controls for the PTC
              Project. We obtained and reviewed supporting documentation.
           B. Determined the PTC Project’s strategy for building fraud detection controls into the
              PTC system.



1
    See Appendix V for a glossary of terms.
2
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                               Page 17
                             Affordable Care Act: Improvements Are
                           Needed to Strengthen Systems Development
                           Controls for the Premium Tax Credit Project


Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRM and related IRS guidelines and the
processes followed in the development of information technology projects using the Iterative
Path as they apply to the ACA Program’s PTC Project.
We evaluated these controls by conducting interviews with management and staff, making
observations of system development and testing activities, and reviewing relevant
documentation. Documents reviewed include the PTC Project Management Plan, the ACA
Program Configuration Management Plan, and other documents that provided evidence of
whether the IRS is adequately managing systems development risks for the PTC Project.




                                                                                         Page 18
                            Affordable Care Act: Improvements Are
                          Needed to Strengthen Systems Development
                          Controls for the Premium Tax Credit Project


                                                                              Appendix II

                 Major Contributors to This Report

Alan Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Gwendolyn McGowan, Director, Systems Modernization and Applications Development
Suzanne Westcott, Audit Manager, Systems Modernization and Applications Development
Kevin Liu, Audit Manager, Technical Assistance Group
David Allen, Lead Auditor
Andrea Barnes, Senior Auditor
Wallace Sims, Senior Auditor
Allen Henry, Program Analyst
Linda Nethery, Information Technology Specialist
Nicholas Reyes, Information Technology Specialist




                                                                                     Page 19
                            Affordable Care Act: Improvements Are
                          Needed to Strengthen Systems Development
                          Controls for the Premium Tax Credit Project


                                                                           Appendix III

                         Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Office of the Deputy Commissioner for Services and Enforcement SE
Deputy Chief Information Officer for Operations OS:CTO
Acting Director, Affordable Care Act Office SE:ACA
Director, Privacy, Governmental Liaison, and Disclosure OS:P
Associate Chief Information Officer, Affordable Care Act – Program Management Office
OS:CTO:ACA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Services and Enforcement SE
       Director, Risk Management Division OS:CTO:SP:RM




                                                                                   Page 20
                             Affordable Care Act: Improvements Are
                           Needed to Strengthen Systems Development
                           Controls for the Premium Tax Credit Project


                                                                               Appendix IV

 Partial Process Diagram for Affordable Care Act 3.0,
   Including the Maximum Advanced Premium Tax
              Credit Calculation Process

The following figures provide a partial process diagram for ACA 3.0, including the maximum
APTC calculation process.
TIGTA developed this diagram based on our review and analysis of various documents provided
by the IRS, and IRS and HHS comments on a draft version of this diagram. Specifically, this
includes the following documents:
      IRS ACA Release 3 End-to-End Overview (dated January 6, 2013).
      ACA orientation for TIGTA (February 7, 2013).
      ACA Program, Baseline Requirements, Solution Architecture, and IT Roadmap,
       Version 2.2 (March 23, 2012).
      ACA Release 3.0 System Security Plan (dated April 15, 2013).
      IRS comments on a draft version of this diagram (dated June 19, 2013; June 20, 2013;
       June 21, 2013; and July 9, 2013).
      HHS comments on a draft version of this diagram (dated July 2, 2013).
Additional acronyms shown in this diagram but not used elsewhere in the report include the
following:
AGI = Adjusted Gross Income.
DHS = Department of Homeland Security.
FMS = Financial Management Service (a bureau of the Department of the Treasury).
ID = Identification.
IFSV = Income and Family Size Verification.
QHP = Qualified Health Plan.
SSA = Social Security Administration.
SSN = Social Security Number.
TPE = Transactional Portal Environment.

                                                                                       Page 21
  Affordable Care Act: Improvements Are
Needed to Strengthen Systems Development
Controls for the Premium Tax Credit Project




                                              Page 22
                                Affordable Care Act: Improvements Are
                              Needed to Strengthen Systems Development
                              Controls for the Premium Tax Credit Project




Source: TIGTA diagram based on information provided by the IRS and HHS.

                                                                            Page 23
                            Affordable Care Act: Improvements Are
                          Needed to Strengthen Systems Development
                          Controls for the Premium Tax Credit Project


                                                                                   Appendix V

                             Glossary of Terms

Adjusted Gross Income    The total of an individual’s wages, salaries, interest, dividends, etc.,
                         minus allowable deductions.
Affordable Care Act      In March 2010, the President signed into law the Patient Protection
(ACA)                    and Affordable Care Act to provide more Americans with access to
                         affordable health care by January 1, 2014.
Advanced Premium         Paid in advance to a taxpayer’s insurance company to help cover the
Tax Credit               cost of premiums.
Auditable Events         Actions taken on IRS systems that shall be captured and recorded for
                         subsequent audit review based on the impact level of the system
                         (high, moderate, or low) as determined by the guidelines in the
                         National Institute of Standards and Technology Federal Information
                         Processing Standards 199, Standards for Security Categorization of
                         Federal Information and Information Systems. IRM 10.8.3 contains
                         lists of auditable events applicable to the systems categorized as high,
                         moderate, or low based on the National Institute of Standards and
                         Technology Federal Information Processing Standards 199.
Baseline Configuration   A set of specifications for a system, or configuration item within a
                         system, that has been formally reviewed and agreed on at a given
                         point in time, and which can be changed only through change control
                         procedures. The baseline configuration is used as a basis for future
                         builds, releases, and/or changes.
Centers for Medicare     A division of the HHS, the CMS provides health coverage for
and Medicaid Services    100 million people through Medicare, Medicaid, and the Children’s
(CMS)                    Health Insurance Program.
Change Management        The transition of a changed or new product through development to
                         deployment into the current production environment with minimum
                         disruption to users. This can occur in a number of ways including,
                         but not limited to: (1) implementation of a change to a product
                         baseline; (2) establishing a new product baseline; and (3) a change to
                         a Service Level Agreement.



                                                                                            Page 24
                            Affordable Care Act: Improvements Are
                          Needed to Strengthen Systems Development
                          Controls for the Premium Tax Credit Project



Change Request           The method for requesting approval to change a baselined product or
                         other controlled item.
Configuration Settings   The set of parameters that can be changed in hardware, software,
                         and/or firmware that affect the security posture and/or functionality
                         of the information system.
Electronic Fraud         An IRS automated compliance system designed to maximize fraud
Detection System         detection at the time tax returns are filed to prevent the issuance of
                         questionable refunds. The primary information system used to
                         support the Criminal Investigation Questionable Refund Program.
Enterprise Life Cycle    The Enterprise Life Cycle is the approach used by the IRS to manage
                         and implement business change through information systems
                         initiatives.
Exchange                 Exchanges are intended to provide a place for Americans to shop for
                         health insurance in a competitive environment.
Federal Poverty Level    Guidelines published and updated periodically in the Federal Register
(FPL)                    by the Secretary of the HHS. The APTC will be available for
                         individuals and families whose incomes are at least 100 percent and
                         up to 400 percent of the FPL who do not have minimal essential
                         coverage.
Health and Human         The U.S. Government’s principal agency for protecting the health of
Services                 all Americans and providing essential human services.
Hub                      Supports the exchanges by providing a single point where exchanges
                         may access data from different sources, primarily Federal agencies.
Income and Family        Will verify income and family size for individuals requesting
Size Verification        eligibility for an APTC for health insurance.
Infrastructure           The fundamental structure of a system or organization. The basic,
                         fundamental architecture of any system (electronic, mechanical,
                         social, political, etc.) determines how it functions and how flexible it
                         is to meet future requirements.
Iterative Systems        The Iterative Path is an adaptive development approach in which
Development Life         projects start with initial planning and end with deployment, with
Cycle                    repeated cycles of requirement discovery, development, and testing in
                         between. It is a more flexible and adaptable process than traditional
                         sequential development approaches.



                                                                                           Page 25
                           Affordable Care Act: Improvements Are
                         Needed to Strengthen Systems Development
                         Controls for the Premium Tax Credit Project



JavaBeans Open          A platform for developing and deploying enterprise applications,
Source Software         Web applications, and services and portals.
Logical Access          The ability to interact with data through access control procedures
                        such as identification, authentication, and authorization.

Low Impact System       An information system in which all three security objectives (i.e.,
                        confidentiality, integrity, and availability) are assigned a Federal
                        Information Processing Standards 199 potential impact value of low.
Minimum Essential       The type of coverage an individual needs to have to meet the
Coverage                individual responsibility requirement under the ACA. This includes
                        individual market policies, job-based coverage, Medicare, Medicaid,
                        and certain other coverage.
National Institute of   A nonregulatory Federal agency within the Department of Commerce
Standards and           responsible for developing standards and guidelines, including
Technology              minimum requirements, for providing adequate information security
                        for all Federal Government agency operations and assets.
Oracle                  An object-relational database management system.
Premium Tax Credit      A new refundable tax credit to help taxpayers and families afford
                        health insurance coverage purchased through an Exchange.
Remainder Benchmark     The household’s contribution towards the monthly insurance
Household               premium.
Contribution
Requirement             A formalization of a need and the statement of a capability or
                        condition that a system, subsystem, or system component must have
                        or meet to satisfy a contract, standard, or specification.
Requirements            A tool that documents requirements and establishes the traceable
Traceability            relationships between the requirements to be tested and their
Verification Matrix     associated test cases and test results.
Second Lowest Cost      Plans in the Marketplace are primarily separated into four health plan
Silver Plan             categories (Bronze, Silver, Gold, or Platinum) based on the
                        percentage the plan pays of the average overall cost of providing
                        essential health benefits to members. The PTC is calculated using the
                        Second Lowest Cost Silver Plan, regardless of what plan the taxpayer
                        ultimately selects.




                                                                                        Page 26
                          Affordable Care Act: Improvements Are
                        Needed to Strengthen Systems Development
                        Controls for the Premium Tax Credit Project



Sprint                 A process that develops a piece of functionality of the system with
                       repeated cycles of requirements discovery, planning, design,
                       development, and testing. ACA projects conduct a series of
                       “sprints,” either sequentially or even in parallel, within each release.
                       The goal of each sprint is to get a subset of the project’s functionality
                       to a “production-ready” state. At the end of the sprint, the
                       functionality developed is fully tested (although it will not be put into
                       production until a later date).
Test Case              Created to specify and document the conditions to be tested and to
                       validate that a system functions as intended.
Transactional Portal   A portal environment to service ACA information system needs. The
Environment            IRS uses the Transactional Portal Environment for mediating
                       transaction requests between the Hub and the IRS.
UNIX Policy Checker    A policy checking tool used to examine servers or mainframe systems
                       and compare their operating system configuration settings to the IRS
                       Cybersecurity policies or interim guidance.
webMethods             Provides a business process integration software for the enterprise,
                       such as a platform, which is an underlying computer system on which
                       application programs can run.




                                                                                         Page 27
           Affordable Care Act: Improvements Are
         Needed to Strengthen Systems Development
         Controls for the Premium Tax Credit Project


                                                 Appendix VI

Management’s Response to the Draft Report




                                                       Page 28
  Affordable Care Act: Improvements Are
Needed to Strengthen Systems Development
Controls for the Premium Tax Credit Project




                                              Page 29
  Affordable Care Act: Improvements Are
Needed to Strengthen Systems Development
Controls for the Premium Tax Credit Project




                                              Page 30
  Affordable Care Act: Improvements Are
Needed to Strengthen Systems Development
Controls for the Premium Tax Credit Project




                                              Page 31
